TOP MANAGEMENT CHALLENGES

     Department of Transportation


     Report Number: PT-2010-008
    Date Issued: November 16, 2009
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: DOT’s Fiscal Year 2010                     Date:    November 16, 2009
           Top Management Challenges
           Report Number PT-2010-008
  From:    Calvin L. Scovel III                                 Reply to
                                                                Attn. of:   J-1
           Inspector General
    To:    The Secretary
           Deputy Secretary

           We have identified the Department of Transportation’s (DOT) top management
           challenges for fiscal year 2010. The Nation’s economy and the quality of life for
           all Americans rely heavily on a safe and vital transportation system. The
           Department spends about $70 billion annually on a wide range of programs and
           initiatives to meet this objective, and we continue to support its efforts through our
           audits and investigations.
           Improving transportation safety remains the Department’s overarching goal. The
           Department, the Administration, and Congress continue to face significant
           challenges in achieving this goal—challenges that will require difficult decisions.
           Longstanding concerns we have identified that demand ongoing attention include
           relieving highway and air traffic congestion, financing the Highway Trust Fund,
           and addressing the Nation’s aging surface infrastructure. At the same time, the
           Department must address new OIG concerns, such as starting up an intercity high-
           speed rail system and ensuring that the Department has a sufficient acquisition
           workforce with the skills needed to oversee contracts. We have begun to build a
           body of work to help the Department effectively manage these and other emerging
           issues.
           The Department’s challenges are further exacerbated by budget constraints,
           uncertain financial markets, fluctuating fuel prices, and an increasing reliance on
           contractors. While the American Recovery and Reinvestment Act in February
           2009 aimed to stimulate the economy, it also created new challenges for the
           Department in overseeing the rapid disbursement of billions of dollars to address
           the Nation’s transportation concerns. We recognize the commitment of the
           Secretary and his staff to the success of DOT’s recovery initiatives. DOT has
           been proactive on several fronts, including establishing the Transportation
Investment Generating Economic Recovery (TIGER) team to coordinate DOT’s
role in the recovery program, ensure accountability, and develop a risk
management and financial reporting plan.
There are important opportunities for the Department to set priorities; establish
sound management policies, practices, procedures; and thereby maximize its
return on transportation investments. Strong leadership and careful stewardship of
taxpayer dollars are essential for successfully addressing the top challenges facing
the Department.
Several criteria were considered in identifying the following ten challenges,
including their impact on safety, documented vulnerabilities, large dollar
implications, and the ability of the Department to effect change in these areas:
• Maximizing the Department’s Economic Recovery Investments
• Enhancing Surface Safety Programs to Reduce Injuries and Fatalities While
  Defining a New Federal Role in Transit Safety
• Maximizing Federal Surface Infrastructure Investments by Helping States
  Better Allocate Resources and Providing Effective Oversight
• Addressing Human Factors and Strengthening the Regulatory and Oversight
  Framework for Aviation Safety
• Moving Toward the Next Generation Air Transportation System and
  Improving Performance of the National Airspace System
• Improving Contract Management and Oversight
• Enhancing the Ability to Combat Cyber Attacks and Improving the
  Governance of Information Technology Resources
• Developing a Funding Framework for the Next Surface Transportation
  Reauthorization
• Strengthening the Department’s Acquisition Workforce
• Successfully Implementing the Newly Created Multi-Billion Dollar High-
  Speed Intercity Passenger Rail Program

We remain committed to keeping decision makers informed of longstanding as
well as emerging problems identified through our audits and investigations so that
timely corrective actions can be taken.
This report and the Department’s response will be included in the Department’s
Performance and Accountability Report, as required by law. The Department’s
response can be found in the appendix.


                                         ii
If you have any questions concerning this report, please contact me at (202)
366-1959. You may also contact Ann Calvaresi Barr, Principal Assistant
Inspector General for Auditing and Evaluation, at (202) 366-1427.



                                     #




                                     iii
 _______________________________________________________________________
                                            Table of Contents


 1. Maximizing the Department’s Economic Recovery Investments ................................ 1

 2. Enhancing Surface Safety Programs to Reduce Injuries and Fatalities
    While Defining a New Federal Role in Transit Safety ................................................. 6

 3. Maximizing Federal Surface Infrastructure Investments by Helping
    States Better Allocate Resources and Providing Effective Oversight ........................ 12

 4. Addressing Human Factors and Strengthening the Regulatory and
    Oversight Framework for Aviation Safety ................................................................. 16

 5. Moving Toward the Next Generation Air Transportation System
    and Improving Performance of the National Airspace System ................................. 21

 6. Improving Contract Management and Oversight ....................................................... 27

 7. Enhancing the Ability to Combat Cyber Attacks and Improving
    the Governance of Information Technology Resources ............................................ 33

 8. Developing a Funding Framework for the Next Surface
    Transportation Reauthorization .................................................................................. 40

 9. Strengthening the Department’s Acquisition Workforce ........................................... 45

10. Successfully Implementing the Newly Created Multi-Billion Dollar
    High-Speed Intercity Passenger Rail Program ........................................................... 51

 Exhibit. Comparison of FY 2010 and FY 2009 Top Management Challenges................ 55

 Appendix. Department Response...................................................................................... 56
CHAPTER 1

Maximizing the Department’s
Economic Recovery Investments




Source: Minnesota 2020, used with permission




I
    n February 2009, Congress passed and the President signed the American Recovery and
    Reinvestment Act 1 in an effort to jumpstart the economy, create or save jobs, and put a
    down payment on addressing transportation needs across the country. In the 8 months
since ARRA’s passage, DOT has obligated $29.6 billion—62 percent of its total $48.1 billion
Recovery Act funds—on nearly 9,476 highway, road, bridge, transit, and rail projects
nationwide. With much at stake, ARRA calls for unprecedented levels of transparency and
accountability to know how, when, and where tax dollars are being spent. DOT took steps
to enhance oversight of its ARRA funding, including establishing the DOT-wide
Transportation Investment Generating Economic Recovery (TIGER) team to coordinate the
Department’s role in the recovery program, ensure accountability, and develop a risk
management and financial reporting plan. While proactive steps like these are important,
DOT still faces several key challenges in meeting ARRA’s goals and requirements going
forward.




1
    Pub. L. No. 111-5, February 17, 2009.

2010 Top Management Challenges, Department of Transportation                             1
CHAPTER 1

Maximizing the Department’s Economic Recovery
Investments




Key Challenges
•      Implementing the Office of the Secretary’s (OST) $1.5 billion TIGER Discretionary Grants
       Program.
•      Enhancing oversight of ARRA spending on existing and new programs.
•      Reporting accurate and consistent job creation data.


Implementing OST’s $1.5 Billion TIGER Discretionary Grants Program
One of ARRA’s new discretionary grants programs includes $1.5 billion under OST for
surface transportation infrastructure projects. To better ensure this program meets its
objective, OST was required to develop comprehensive and sound program plans and
criteria.

OST must overcome management and resource obstacles to effectively implement this
discretionary grant program. For example, OST has not finalized its role in the post-grant
award process once grants are awarded. Also, OST has not thoroughly assessed what
additional grant oversight resources or expertise it will need to effectively administer these
grants.

An immediate challenge OST faces is to establish and carry out objective internal grant
review and selection procedures based on the selection criteria it publicly released in
June.2 Qualitative factors such as “improving existing transportation facilities or systems”
and “livability,” are subject to interpretation by OST grant application evaluators. OST
issued internal guidance at the end of September 2009 that provides details on evaluating
applications against the criteria, and the review process is under way. At the same time,
OST must meet the statutory requirement that ARRA grants be equitably distributed
geographically. These potentially competing requirements, mandated by law, could be
difficult to reconcile, and revising the list of selected projects to satisfy the geographic
distribution requirements could result in higher rated projects being taken off the list.




2
    Federal Register, Vol. 74, No. 115, Wednesday, June 17, 2009.

2010 Top Management Challenges, Department of Transportation                                2
CHAPTER 1

Maximizing the Department’s Economic Recovery
Investments




Enhancing Oversight of ARRA Spending on Existing and New Programs
DOT faces several challenges in overseeing its ARRA programs. The large increase in
funding and tight time frames involved in the implementation of ARRA have strained DOT’s
resources, particularly the time and attention of its field staff. Key focus areas for DOT:

•   Following through on comprehensive workforce plans. To help agencies prepare for
    the added responsibility of awarding ARRA funding, the Office of Management and
    Budget (OMB) directed agencies to assess the gap between their current workforce and
    ARRA human capital requirements. OMB’s guidance requires agencies to identify
    mission-critical human capital needs for ARRA implementation using competency-
    based workforce planning methodologies. While the Federal Highway Administration
    (FHWA) developed an agencywide workforce plan, not all Operating Administrations
    have developed or implemented such plans. Additionally, FAA did not fully consider
    the effects that meeting ARRA requirements might have on existing programs and
    obligations, which agencies are expected to continue to fulfill. The significant increase
    in DOT’s workload underscores the importance of finalizing and following through on a
    comprehensive workforce plan.
•   Enhancing oversight mechanisms. To mitigate the risk of inefficient or imprudent
    expenditure of ARRA dollars, OMB directed agencies to take steps, beyond standard
    practice, to enhance oversight of ARRA grant programs and contracts. Enhanced
    oversight mechanisms have been established for some DOT programs, but ARRA still
    poses ongoing management challenges that will require sustained focus. This is
    especially important for FHWA and FTA, which received three-fourths of DOT’s total
    ARRA funds. For example, to oversee the $27.5 billion it received in ARRA funding,
    FHWA developed national review teams. However, FHWA’s management challenge is
    to make sure these teams have a consistent approach to conducting compliance
    reviews across its 52 Division Offices and promote vigilant oversight of recovery
    projects. In the past, ensuring that its widely dispersed staff provided sufficient
    oversight to grantees had been a challenge for FHWA. 3 In contrast, FTA plans to
    primarily rely on existing reviews to provide oversight of ARRA-funded projects, using
    ARRA funds to increase the level of these reviews. At the grantee level, this will include
    a set of established periodic reviews, such as triennial reviews. Follow-through by FTA



3
  OIG Report Number MH-2009-013, “National Bridge Inspection Program:     Assessment of FHWA’s
Implementation of Data-Driven, Risk-Based Oversight,” January 12, 2009.

2010 Top Management Challenges, Department of Transportation                               3
CHAPTER 1

Maximizing the Department’s Economic Recovery
Investments




   to ensure that all oversight activities are conducted consistently with sufficient rigor is
   key, given the dramatic increase in funds that FTA is charged with overseeing.

   OMB required Federal agencies to aggressively address fraud, waste, and abuse in
   ARRA projects. DOT’s Operating Administrations are taking action to combat the
   significant risk of fraud in the recovery program; but continued outreach is needed to
   enhance understanding among DOT staff, grantees, and their contractors on how to
   detect, prevent, and report potential fraud. Efforts to date are mixed. For example,
   while FTA sponsored a week-long “Grants A to Z” seminar, the Maritime Administration
   (MARAD) continues to lack a systematic fraud prevention strategy. An effective
   strategy centers on deterring fraud schemes that could occur on projects receiving
   recovery funding, such as bid-rigging, false claims for materials and labor, and product
   substitution through mismarking or mislabeling products and materials. A key element
   of this strategy is increased awareness of certain “red flags” that could indicate the
   presence of one or more fraud schemes on a project. As more recovery projects are
   initiated across the country, OIG’s investigative staff will continue to partner with
   program officials to provide fraud prevention and awareness education. However,
   each Operating Administration must maintain its own rigorous fraud prevention and
   awareness programs.


Reporting Accurate and Consistent Job Creation Data                           To provide
transparency and accountability for Federal recovery dollars, ARRA mandated extensive
new reporting requirements to include estimating and reporting on job creation. However,
a lack of guidance to the individual Operating Administrations on assessing data reliability
and untimely reporting on new jobs may impede the Department’s ability to provide
accurate reports.

OMB provided general guidance to agencies on how to obtain and report job creation data
for ARRA projects, but DOT’s plans for estimating and reporting such jobs raises concerns.
For example, OST has not provided guidance on how the Operating Administrations should
assess the reliability of job creation data provided by recipients. In addition, OST’s
methodology for estimating the number of indirect jobs created by ARRA projects is
inconsistent with the Council of Economic Advisors recommended methodology for
estimating total employment. Further, OST intends to report indirect and total jobs on the
date recipients are reimbursed for expenditures, which could result in a lag between when

2010 Top Management Challenges, Department of Transportation                               4
CHAPTER 1

Maximizing the Department’s Economic Recovery
Investments




jobs are actually created or saved and when they are reported. Given the ambiguity these
weaknesses create in OST’s estimates—particularly its estimates of indirect jobs—it is
critical that DOT expeditiously address risks related to the quality of job creation data.


Related Products The following related reports, testimonies, and advisories can be
found on the OIG website at http://www.oig.dot.gov.
•   Status of Operating Administrations’ Processes To Conduct Limited Quality Reviews of
    Recovery Act Recipient Data, October 6, 2009.
•   ARRA Advisory: FAA’s Process for Awarding ARRA Airport Improvement Program
    Grants, August 6, 2009.
•   ARRA Advisory: Sampling of Improper Payments in Major DOT Grants Programs
    Department of Transportation, June 22, 2009.
•   ARRA Advisory: DOT's Suspension and Debarment Program, May 18, 2009.
•   American Recovery and Reinvestment Act: DOT’s Implementation Challenges and the
    OIG’s Strategy for Continued Oversight of Funds and Programs, April 30, 2009, and
    April 29, 2009.
•   American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing the
    Department of Transportation, March 31, 2009.
•   Top Management Challenges Facing the Department of Transportation, March 10,
    2009.




For more information on the issues identified in this chapter, please contact
Madeline Chulumovich, Special Assistant for Economic Recovery, at
(202) 366-6512.




2010 Top Management Challenges, Department of Transportation                            5
CHAPTER 2

Enhancing Surface Safety Programs To
Reduce Injuries and Fatalities While
Defining a New Federal Role in Transit
Safety




D
        espite recent decreases, motor vehicle-related crashes cause nearly 95 percent of
        all transportation deaths. 4 In 2008, such crashes killed more than 37,000 people
        and injured an estimated 2.35 million. Some types of fatalities, such as those
involving motorcycles, increased in 2008, and serious problems—such as alcohol-impaired
driving and unrestrained occupants—persist. Motor vehicle-related fatalities and injuries
also have significant public health and economic consequences. Motor vehicle crashes cost
about $230 billion for medical care, property damage, and lost productivity in 2000, the
most recent data available. The Department continues its commitment to improving
safety. Recently, the Transportation Secretary announced an initiative to combat
distracted driving—a contributing factor in about 16 percent of fatal crashes and 22
percent of injury crashes.




4
 All data in this chapter from National Highway Traffic Safety Administration sources, unless otherwise
noted.

2010 Top Management Challenges, Department of Transportation                                              6
CHAPTER 2

Enhancing Surface Safety Programs To Reduce Injuries
and Fatalities While Defining a New Federal Role in
Transit Safety




Key Challenges
•   Promoting meaningful performance indicators to consistently measure states’ progress
    in improving safety.
•   Targeting unsafe motor carriers and commercial drivers for enforcement and
    enhancing the Commercial Driver’s License (CDL) program.
•   Overseeing the safety of public transit systems.


Promoting Meaningful Performance Indicators to Consistently Measure
States’ Progress in Improving Safety The Department has helped reduce highway
fatalities and injuries by establishing motor vehicle safety standards, providing safety
grants to states, funding road and bridge improvements, and supporting research on
driving behavior. As vehicle miles traveled decreased during the economic recession, the
number of people killed and injured in motor vehicle crashes also decreased (see figure 2-
1). However, fatalities in alcohol-impaired driving crashes accounted for 32 percent of all
traffic fatalities in 2007 and 2008. Further, the percentage of unrestrained passenger
fatalities rose to 55 percent of all passenger fatalities in 2008. Recent fatalities and injuries
in other modes of surface transportation—particularly transit—also raise concerns.




2010 Top Management Challenges, Department of Transportation                                  7
CHAPTER 2

Enhancing Surface Safety Programs To Reduce Injuries
and Fatalities While Defining a New Federal Role in
Transit Safety




Figure 2-1. U.S. Highway Fatalities and Injuries, 2004 through 2008

Fatalities                                               Injuries
    45,000                                                3,000,000




    40,000                                                2,500,000




    35,000                                                2,000,000




    30,000                                                1,500,000
             2004    2005     2006    2007     2008                   2004    2005   2006   2007   2008

Source: National Highway Traffic Safety Administration



Each year, the Department provides about $600 million in Federal grants for state and local
highway safety programs, including those aimed at reducing alcohol-impaired driving and
promoting seat belt use.5 The Department must continue working with states to reinforce
current safety initiatives and introduce new initiatives through strong leadership, clear
Federal standards, and empirical evidence regarding safety program performance. Our
work has shown that the Department can improve its ability to measure the effectiveness
of Federal resources and state strategies by requiring states to use more meaningful
performance indicators linked to proven strategies, such as year-round sustained
enforcement of alcohol-impaired driving laws. Performance indicators would provide
states with better tools to judge their progress, allow the Department to compare states’
success and promulgate best practices, and enhance public accountability.

The Department and the Governors Highway Safety Association developed a set of 14
minimum performance measures for states to use in priority programs. The Department
committed to work with states to develop uniform definitions, protocols, and reporting
requirements for each measure. However, to monitor the success of these efforts, the


5
    United States Department of Transportation, Fiscal Year 2008 Budget In Brief.

2010 Top Management Challenges, Department of Transportation                                              8
CHAPTER 2

Enhancing Surface Safety Programs To Reduce Injuries
and Fatalities While Defining a New Federal Role in
Transit Safety




Department will need to ensure states establish measureable goals and report their
progress in meeting these goals.


Targeting Unsafe Motor Carriers and Commercial Drivers for Enforcement and
Enhancing the CDL Program Approximately 4,500, or 1 in 8 overall fatalities in 2008
were related to crashes involving large trucks or buses. 6 To reduce these fatalities, the
Department must take on several challenges. First, the Department must take stringent
enforcement action against carriers that repeatedly violate safety regulations—an action
we recommended in 2006—and ensure that unsafe carriers are placed out of service and
not re-issued authority under new identities. In response to our work, the Federal Motor
Carrier Safety Administration (FMCSA) revised its policies to enhance controls for assessing
maximum fines for repeat violations of motor carrier regulations. FMCSA has also
proposed stronger CDL standards and implemented a more stringent motor carrier
application vetting process to identify carriers that might have had a previous authority
revoked for unsafe operations.

Second, the Department must improve enforcement and data systems used to oversee the
motor carrier industry and commercial motor vehicle drivers. For example, we identified
weaknesses in the Commercial Driver’s License Information System, including state
tardiness in posting commercial driver convictions and inadequate system security. The
Department also lacks reliable traffic conviction data on holders of commercial driver’s
licenses from Mexico, diminishing its ability to effectively oversee cross-border trucking.
Finally, the Department must implement our long-standing recommendations for revising
knowledge and skills testing standards, implementing fraud prevention efforts, and
establishing new minimum standards for states to issue commercial driver’s permits.

The Department's Comprehensive Safety Analysis 2010 initiative—an initiative to increase
the effectiveness of compliance and enforcement programs—will rely heavily on
information systems and data reporting. Accordingly, it is imperative that the Department
continue improving the quality of crash, inspection, and census data. The Department
must take enforcement action against carriers that do not comply with census data
reporting requirements, as these data are vital to the success of the Department’s new
motor carrier applicant vetting and safety rating processes.

6
 National Highway Traffic Safety Administration and Federal Motor Carrier Safety Administration, Motor
Carrier Safety Progress Report, June 30, 2009.

2010 Top Management Challenges, Department of Transportation                                             9
CHAPTER 2

Enhancing Surface Safety Programs To Reduce Injuries
and Fatalities While Defining a New Federal Role in
Transit Safety




Finally, the Department should continue working with OIG investigators and state and local
agencies to identify and stop CDL holders who are not properly licensed. For example, as
part of one of our criminal investigations, FMCSA has sent notices to more than 5,000 CDL
holders that they need to be retested. Our investigation indicates that employees of a
private driving academy might have improperly administered CDL tests for some students
who attended this driving academy.

Overseeing the Safety of Public Transit Systems In 2008, transit systems’
ridership continued to increase, with over 10 billion trips. Historically, transit systems have
provided safe transportation relative to other modes, particularly motor vehicles.
However, the June 2009 collision of two Metrorail trains outside Washington, D.C., which
killed 9 people and injured more than 70, as well as other recent transit incidents have
elevated concerns about the safety of these systems and the Federal role in ensuring
safety. Of particular concern are issues related to operator performance, physical
infrastructure, fleet operations and control systems, and management of rail cars and
transit buses.

The Department faces challenges in defining a transit safety oversight structure, including
closing gaps in regulatory and enforcement authority. The Department must explore
options for a complete approach to safety and to address statutory authority issues that
could impede the Federal role in ensuring that safety. Accordingly, the Department
established a multimodal team of safety officials and experts to address transit safety and
statutory authority reform. A critical challenge facing this group will be to identify safety
practices that can be applied effectively by all transit agencies.




2010 Top Management Challenges, Department of Transportation                               10
CHAPTER 2

Enhancing Surface Safety Programs To Reduce Injuries
and Fatalities While Defining a New Federal Role in
Transit Safety




Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•   Follow-up Audit on the Implementation of NAFTA’s Cross-Border Trucking Provisions,
    August 17, 2009.
•   Audit of the Data Integrity of the Commercial Driver’s License Information System, July
    30, 2009.
•   Status Report on NAFTA Cross-Border Trucking Demonstration Project, February 2,
    2009.
•   Use of Income Derived from the Commercial Driver’s License Information System for
    Modernization, July 10, 2008.
•   Best Practices for Improving Oversight of State Highway Safety Programs, March 25,
    2008.
•   Cross-Border Trucking Demonstration Project, Testimony, March 11, 2008.
•   Interim Report on NAFTA Cross-Border Trucking Demonstration Project, March 10,
    2008.
•   Effectiveness of Federal Drunk Driving Programs, October 25, 2007.
•   Issues Pertaining to the Proposed NAFTA Cross-Border Trucking Demonstration Project,
    September 6, 2007.
•   Follow-Up Audit of the Implementation of the North American Free Trade Agreement’s
    (NAFTA) Cross-Border Trucking Provisions, August 6, 2007.
•   Motor Carrier Safety: Oversight of High Risk Trucking Companies, July 11, 2007.
•   Audit of the National Highway Traffic Safety Administration’s Alcohol-Impaired Driving
    Traffic Safety Program, March 5, 2007.


For more information on the issues identified in this chapter, please contact
Joseph Comé, Assistant Inspector General for Surface and Maritime Program
Audits, at (202)-366-5630, or Timothy Barry, Principal Assistant Inspector
General for Investigations, at (202) 366-1967.


2010 Top Management Challenges, Department of Transportation                           11
CHAPTER 3

Maximizing Federal Surface
Infrastructure Investments by Helping
States Better Allocate Resources and
Providing Effective Oversight




Source: DOT




A
        2009 report from the American Society of Civil Engineers (ASCE) noted that one-
        third of the Nation’s major roads are in poor or mediocre condition and that more
        than one-quarter of our bridges are deficient. According to ASCE, current spending
on roads is well below the estimated $186 billion needed annually to substantially improve
them; FHWA recently estimated that $65 billion could be invested immediately to address
current bridge deficiencies. Meanwhile, the Highway Trust Fund 7, which provides most of
the funding for highway and transit programs, faces an ongoing cash flow problem.

Key Challenges
• Developing improved tools and techniques to help states better allocate scarce
       resources.
• Providing effective oversight of Federal investments through better use of data,
       management tools, and performance measures.




7
    See Chapter 8 for a discussion of Highway Trust Fund issues.


2010 Top Management Challenges, Department of Transportation                         12
CHAPTER 3

Maximizing Federal Surface Infrastructure Investments by
Helping States Better Allocate Resources and Providing
Effective Oversight



Developing Improved Tools and Techniques To Help States Better
Allocate Scarce Resources Maximizing Federal investment in surface infrastructure
is particularly challenging because the majority of the Department’s federally assisted
highway programs are administered by states, which have broad flexibility in deciding how
to use their funds, which projects to pick, and how to implement them. For example, in
fiscal year 2009, states received over $5 billion through the Highway Bridge Program—the
primary Federal funding program for replacing and rehabilitating bridges nationwide—and
states may transfer up to 50 percent of these funds to other Federal-aid highway programs.
Some states have chosen to make such transfers, such as Pennsylvania, which from fiscal
years 2001 to 2008 transferred approximately $1.2 billion of its $3.5 billion in Highway
Bridge Program funding to other Federal-aid highway programs.

The Department can assist states in making better resource allocation decisions by
developing improved tools and techniques. In early 2009, we reported that FHWA could
strengthen its oversight role by expanding states’ use of bridge management systems—
computerized systems that prioritize replacement and repair projects and thereby allow
states to more effectively use their resources, preserve existing infrastructure, and best
serve the public. By routinely collecting and evaluating information on states’ use of bridge
management systems, FHWA can target technical and training resources and provide other
assistance to states most in need of help in implementing effective systems. FHWA has
begun to take such action, but a sustained effort will be needed to help ensure states use
their bridge funds wisely.


Providing Effective Oversight of Federal Investments through Better
Use of Data, Management Tools, and Performance Measures DOT has
begun to develop data systems, management tools, and performance measures to improve
its oversight over Federal infrastructure investments. However, additional improvements
in these ongoing efforts would enable the Department to better determine whether
programs are achieving intended results and assist in holding states and other grantees
accountable for results.




2010 Top Management Challenges, Department of Transportation                             13
CHAPTER 3

Maximizing Federal Surface Infrastructure Investments by
Helping States Better Allocate Resources and Providing
Effective Oversight



A major concern is the monitoring of funds disbursed through the Highway Bridge
Program, which was authorized $21.6 billion through 2009 to improve the condition of
deficient bridges through replacement and rehabilitation.8 FHWA is responsible for
overseeing the efficient and effective use of these and other Federal-aid highway funds.9
However, our recent work has shown that FHWA lacks the tools needed to effectively track
bridge expenditures and measure performance. Specifically, FHWA is currently unable to
determine how much of the funding provided to states is actually spent on deficient
bridges because its financial management system lacks the details necessary to link
expenditures to improvements made to deficient bridges. FHWA also lacks a systematic
approach for establishing performance goals and sharing with states and other
stakeholders the results of their performance—key strategies in assessing the impact of
Federal dollars on bridge conditions and targeting oversight activities. FHWA must ensure
that the significant investment in the Highway Bridge Program is used effectively by states
to improve the condition of the Nation’s deficient bridges.

We also reported in late 2008 on weaknesses in FTA’s oversight of $4.55 billion in Federal
funds to reconstruct Lower Manhattan’s transportation infrastructure following its
extensive devastation on September 11, 2001. While FTA’s risk management tool
identified project management issues, including those that contributed to cost increases
and schedule delays, FTA’s efforts to identify and mitigate risks to grantee performance
were not fully successful in keeping the Lower Manhattan Recovery Projects within budget
and on schedule. Over a period of 2 years, there was a continuing trend of escalating
project costs and schedule delays. FTA has enhanced its risk management process to
establish new guidelines and milestones for managing cost and schedule risks. To make its
use of the risk management tool fully effective, FTA must follow through and ensure that
grantees mitigate risks in a timely manner. Successful use of such tools will be critical as
FTA oversees work on the Access to the Region’s Core project in the New York-New Jersey
area—a project currently estimated at $9 billion.




8
  States are also allowed to use Highway Bridge Program funds for other activities, such as systematic
preventative maintenance, regardless of a bridge’s deficiency status.
9
  23 U.S.C. §106 (2006).

2010 Top Management Challenges, Department of Transportation                                             14
CHAPTER 3

Maximizing Federal Surface Infrastructure Investments by
Helping States Better Allocate Resources and Providing
Effective Oversight



Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

• National Bridge Inspection Program: Assessment of FHWA’s Implementation of Data-
   Driven, Risk-Based Oversight, January 12, 2009.
• DOT’s FY 2009 Top Management Challenges, November 17, 2008.
• Baseline Report on the Lower Manhattan Recovery Projects, September, 26, 2008.
• FHWA Can Do More in the Short Term To Improve Oversight of Structurally Deficient
   Bridges, September 20, 2007.
• Federal Highway Administration’s Oversight of Structurally Deficient Bridges,
   September 5, 2007.




For more information on the issues identified in this chapter, please contact
Joseph Comé, Assistant Inspector General for Surface and Maritime Program
Audits, at (202)-366-5630.


2010 Top Management Challenges, Department of Transportation                          15
CHAPTER 4

Addressing Human Factors and
Strengthening the Regulatory and
Oversight Framework for Aviation Safety




Source: Federal Aviation Administration




T
       he past several years have been one of the safest periods in history for the aviation
       industry, largely due to the Federal Aviation Administration’s (FAA) and the aviation
       industry’s dedicated efforts to improve safety. A dramatic example of aviation skill
was witnessed last January when U.S. Airways flight 1549 made an emergency landing in
the Hudson River and all 155 passengers and crew survived. However, the crash of
Continental Connection flight 3407, which occurred just weeks later and resulted in
50 fatalities, confirmed the need for constant vigilance over aviation safety.

Key Challenges
•   Increasing efforts to address human factors.
•   Providing an equivalent level of safety for passengers flying on-demand carriers by
    strengthening FAA regulations and oversight.
•   Maintaining momentum in joint FAA/industry efforts to improve runway safety.



2010 Top Management Challenges, Department of Transportation                              16
CHAPTER 4

Addressing Human Factors and Strengthening the
Regulatory and Oversight Framework for Aviation Safety




Increasing Efforts To Address Human Factors Human factors such as fatigue have
been on the National Transportation Safety Board’s (NTSB) Most Wanted Safety List of
Safety Improvements since the list was created 19 years ago. According to NTSB, fatigue
has been associated with 250 air carrier fatalities in the last 16 years. NTSB’s preliminary
investigation into the cause of the Continental accident last February found some evidence
that suggests pilot fatigue and lack of training may have contributed to the crash. While
NTSB identified these issues as areas of concern for all air carriers, they are particularly
critical at regional carriers, which were involved in the last six fatal Part 121 10 accidents.
NTSB cited pilot performance as a potential factor in four of those accidents.

Our work indicates that operational differences between regional and mainline carriers
could affect safety issues such as pilot fatigue. For example, regional carriers typically
perform short and medium hauls to hub airports, which can result in many short flights in
1 day for a regional air carrier pilot. Multiple studies by agencies such as the National
Aeronautics and Space Administration have concluded that these types of operations can
contribute to pilot fatigue. Despite these differences, FAA has yet to revise its rules
governing crew rest requirements. FAA is reviewing its pilot rest requirements to
determine what changes should be made, and expects to issue a Notice of Proposed
Rulemaking by then end of the year.

Fatigue among air traffic controllers is also a major air safety issue. For example, NTSB
expressed concerns about the effect controller fatigue had on the August 2006 crash of
Comair Flight 5191. In its investigative report, NTSB noted that the lone controller on duty
at the time of the accident had only 2 hours of sleep prior to his shift. Our June 2009
report on controller fatigue found that minimal hours between shifts, counter rotational
shifts with progressively earlier start times, scheduled overtime, and on-the-job training
likely contribute to controller fatigue. 11 FAA is amending its policies governing controller
rest requirements; however, changes have not yet been implemented. Given the serious
risks pilot and controller fatigue poses to aviation safety, FAA needs to implement its
proposed rulemaking and regulation changes expeditiously.




10
   14 CFR 121, Operating Requirements: Domestic, Flag, and Supplemental Operations. This FAA regulation
governs commercial air carriers, including regional air carriers, with primarily scheduled flights.
11
   OIG Report Number AV-2009-065, Air Traffic Control: Potential Fatigue Factors, June 29, 2009.

2010 Top Management Challenges, Department of Transportation                                       17
CHAPTER 4

Addressing Human Factors and Strengthening the
Regulatory and Oversight Framework for Aviation Safety




Providing an Equivalent Level of Safety for Passengers Flying On-
Demand Carriers by Strengthening FAA Regulations and Oversight In
2007 and 2008, small, commercial on-demand carriers experienced 33 fatal accidents
resulting in 109 deaths—a bleak safety record when compared to large U.S. commercial air
carriers, which had no passenger deaths in the same period. In addition to air tour flights
and cargo operations, on-demand operators provide critical services, such as emergency
medical, rescue, and human organ transportation, as well as air service to small remote
communities. However, these carriers typically operate in a riskier environment than
commercial aircraft. They perform more takeoffs and landings, making them more
vulnerable to terrain, weather, and other obstacles.

Despite these risks, we reported in July 2009 that on-demand operators have less
restrictive regulations and oversight than commercial carriers. 12 For example, on-demand
regulations allow lower minimum pilot experience for flight crews than commercial air
carriers and maintenance inspection requirements are less restrictive for smaller on-
demand aircraft. In addition, not all on-demand operators are required to have advanced
equipment that commercial aircraft must have, such as ground proximity warning systems
and traffic alert and collision avoidance systems. Further, many of the existing regulations
for on-demand operators have not been updated to address changes in the industry. Some
regulations date as far back as 1978.

Our work has shown that targeted, risk-based oversight from FAA could help mitigate these
risk factors and better address the diversity of on-demand operators. However, FAA
oversight of on-demand operators is based on compliance with regulations rather than
where risk dictates. FAA is developing a new risk-based oversight approach for on-demand
operators, but this new system is not scheduled for full deployment for at least another
4 years. Because of the high fatality rate associated with on-demand operations, FAA
needs to implement an interim process that considers the inherent operational risk factors
in on-demand operations.




12
  OIG Report Number AV-2009-066, On-Demand Operators: Less Stringent Safety Requirements and
Oversight than Large Commercial Carriers, July 13, 2009.

2010 Top Management Challenges, Department of Transportation                            18
CHAPTER 4

Addressing Human Factors and Strengthening the
Regulatory and Oversight Framework for Aviation Safety




Maintaining Momentum in Joint FAA/Industry Efforts To Improve
Runway Safety Reducing the risk of runway collisions and other runway incursions is a
critical issue that requires ongoing efforts on the part of FAA, airlines, and airport
operators. While new FAA technologies provide potential solutions to improving runway
safety in the future, our reviews of three such technologies 13 disclosed serious concerns
about the timeliness of these solutions and underscored the need for more near-term
solutions. In August 2007, FAA, airline, and airport officials created a Call to Action Plan
that identified a series of short-, mid-, and long-term initiatives to reduce runway
incursions. These included addressing needed near-term solutions such as airport-specific
infrastructure and procedural changes.

Since the plan’s inception, the most serious runway incursions have decreased by 50
percent (from 24 to 12). However, factors outside the Plan’s actions may have also
contributed to the significant decrease in serious incidents. For example, since fiscal year
2007, airport operations have decreased 14 percent, resulting in fewer aircraft and vehicles
using runways, taxiways, and airport ramps, thus diminishing the potential for runway
incursions to occur.       Additionally, many safety improvements at airports were
implemented before the Plan was established.

Nevertheless, most airport, airline, and air traffic control officials we spoke with credited
the Plan for creating an environment of heightened attention about runway safety among
all users—a substantial accomplishment. To sustain this momentum and achieve its overall
goal of reducing runway incursions by 10 percent by fiscal year 2013, FAA needs to fully vet
and set milestones for the Plan’s mid- and long-term initiatives. Our past work has shown
that FAA’s actions to improve runway safety diminished as it met its overall goal for
reducing runway incursions. 14




13
   Automatic Dependent Surveillance Broadcast—a satellite-based technology that allows aircraft to
broadcast their position to other aircraft and ground systems; the Airport Surface Detection Equipment-
Model-X—a ground surveillance system intended to alert controllers to potential ground collisions; and
Runway Status Lights—automated, surveillance-driven lights to alert pilots in departing or crossing aircraft
that the runway is occupied.
14
   OIG Report Number AV-2007-050, Progress Has Been Made in Reducing Runway Incursions, but Recent
Incidents Underscore the Need for Further Proactive Efforts, May 24, 2007.

2010 Top Management Challenges, Department of Transportation                                            19
CHAPTER 4

Addressing Human Factors and Strengthening the
Regulatory and Oversight Framework for Aviation Safety




Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•   Report on On–Demand Operators: Less Stringent Safety Requirements and Oversight
    than Large Commercial Air Carriers, July 13, 2009.
•   Air Traffic Control: Potential Fatigue Factors, June 29, 2009.
•   Testimony before the House Subcommittee on Aviation: Regional Air Carriers and Pilot
    Workforce Issues. June 11, 2009.
•   Training Failures Among Newly Hired Air traffic Controllers. June 8, 2009.
•   FAA Is Not Realizing the Full Benefits of the Aviation Safety Action Program, May 14,
    2009.
•   Controller Staffing at Key California Air Traffic Control Facilities, April 23, 2009.
•   Actions Taken and Needed to Improve FAA’s Runway Safety Area Program, March 3,
    2009.
•   Review of FAA’s Oversight of Airlines and Use of Regulatory Partnership Programs, June
    30, 2008.
•   Progress Has Been Made in Reducing Runway Incursions, but Recent Incidents
    Underscore the Need for Further Proactive Efforts, May 24, 2007.




For more information on the issues identified in this chapter, please contact
Lou Dixon, Assistant Inspector General for Aviation and Special Programs, at
(202) 366-0500.


2010 Top Management Challenges, Department of Transportation                                20
CHAPTER 5

Moving Toward the Next Generation Air
Transportation System and Improving
Performance of the National Airspace
System




Source: Federal Aviation Administration




T
       he National Airspace System handles almost 50,000 flights per day and more than
       700 million passengers per year. Historically, steadily increasing levels of air traffic
       have resulted in increasing delays and cancellations, particularly at heavily
congested airports such as Newark International, John F. Kennedy International, and
Atlanta Hartsfield-Jackson International. To better manage air traffic and congestion, the
Federal Aviation Administration (FAA) is developing the Next Generation Air Transportation
System (NextGen), which is expected to yield significant benefits in terms of reducing
delays, saving fuel, adding capacity, improving access, enhancing safety, and reducing
environmental impact. NextGen, however, is a high-risk effort involving billion-dollar
investments from both the Government and the airline industry. NextGen’s challenges are
multi-dimensional and involve research and development, complex software development
and integration for existing and new systems, workforce changes, and policy questions
about how to spur aircraft equipage.




2010 Top Management Challenges, Department of Transportation                               21
CHAPTER 5

Moving Toward the Next Generation Air Transportation
System and Improving Performance of the National
Airspace System




Key Challenges
•    Taking actions to deliver NextGen benefits in the near- and mid-term.
•    Maximizing the benefits of performance-based navigation in the national airspace
     system and keeping airspace redesign projects on track.
•    Improving programs for developing the next generation of air traffic controllers.

Taking Actions To Deliver NextGen Benefits in the Near- and Mid-Term
A key challenge for the Department and FAA involves setting realistic expectations for what
NextGen can deliver in the near- and mid-term. Between fiscal years 2009 and 2014, FAA
plans to spend about $7 billion on NextGen-related programs, which include a new
satellite-based system for surveillance and a new information sharing system (see figure 5-
1).

Figure 5-1. FAA Capital Funding for Fiscal Years 2008 through 2014

    MILLIONS


    3,500
    3,000
    2,500
    2,000
    1,500
    1,000
      500
          0
               2008     2009       2010     2011        2012    2013      2014
                                          Fiscal Year


                Remaining Facilities and Equipment      NextGen Funding


Source: Federal Aviation Administration




2010 Top Management Challenges, Department of Transportation                             22
CHAPTER 5

Moving Toward the Next Generation Air Transportation
System and Improving Performance of the National
Airspace System




However, a recent FAA analysis 15 indicates that NextGen capabilities, originally envisioned
for 2025, would cost several times the current projected cost estimate of $40 billion.
Further, it is likely that some of NextGen’s advanced automated air and ground capabilities
will not be implemented until 2035 or later. Consequently, keeping existing projects on
track is critical because about 30 projects serve as enabling platforms for NextGen
initiatives. For example, core NextGen capabilities, such as data link communications, rely
on enhancements to the $2.1 billion En Route Automation Modernization (ERAM) program,
which provides new hardware and software for facilities that manage high-altitude traffic.
While the effort remains on schedule, ERAM has experienced some technical problems,
and future ERAM software requirements related to NextGen are undefined and costs are
uncertain.

In September 2009, an FAA-sponsored government-industry task force issued a report
detailing what can be done in the next 3 to 5 years. The task force made 28
recommendations, including maximizing existing aircraft navigation capabilities, improving
the use of runways at congested airports, and enhancing airport surface operations. FAA is
committed to implementing the task force’s recommendations, but several areas require
sustained management attention to advance NextGen in the near- and mid-term and build
confidence with congressional and aviation stakeholders:

•    Clearly establish and articulate budget priorities for the near-term and identify
     programmatic interdependencies.
•    Keep existing projects, such as the billion-dollar ERAM effort, on schedule.
•    Continue to refine a mid-point architecture (a technical road map) for the 2015 to 2018
     time frame that provides a transition path for existing acquisitions.
•    Assess and obtain the necessary skills with respect to contract management and
     systems engineering needed to manage and execute NextGen.
•    Establish metrics for assessing progress with NextGen that focus on enhancing capacity,
     boosting productivity, and reducing operating costs.




15
  The analysis—referred to as the NextGen portfolio or “trade space” analysis—was sponsored by FAA’s Joint
Planning and Development Office. The analysis began in October 2008, and interim results were available in
May 2009. FAA is continuing to update and revise the analysis.

2010 Top Management Challenges, Department of Transportation                                          23
CHAPTER 5

Moving Toward the Next Generation Air Transportation
System and Improving Performance of the National
Airspace System




Maximizing the Benefits of Performance-Based Navigation in the
National Airspace System and Keeping Airspace Redesign Projects on
Track A fundamental building block of FAA’s NextGen efforts is establishing new
Performance-Based Navigation (PBN) routes and procedures, using Area Navigation (RNAV)
and Required Navigation Performance (RNP) specifications. 16 The potential benefits of
RNAV and RNP are significant and include shorter, more direct flight paths; improved
airport arrival and departure efficiency; enhanced controller productivity; fuel savings; and
reduced aircraft noise. FAA faces several challenges in implementing these initiatives.
First, air carriers are not satisfied with most of the FAA’s new RNP approach procedures
because the procedures rely heavily on laying RNP routes over existing routes to deploy
them more quickly. Second, use of RNAV/RNP procedures at some airports has been
limited due to continuing operational issues and concerns over workload and training for
controllers and pilots. Third, the role of non-government third parties in developing
RNAV/RNP procedures is unclear, and industry representatives are skeptical of FAA’s ability
to deliver the more complex procedures in a timely manner.

In addition, FAA has not yet made adjustments to key programs that will be needed to
realize the expected benefits of RNAV and RNP, such as airspace redesign efforts.
Currently, FAA is pursuing six airspace projects nationwide, including a major but
controversial effort to revamp airspace in the New York/New Jersey/Philadelphia area. A
level of coordination between airspace redesign projects and RNAV/RNP procedures—
which currently does not exist—will be essential as procedures move beyond overlays and
local operations to networking routes between city pairs.

As we noted in July 2009, 17 several areas will require sustained management attention to
get RNAV and RNP on track. These include producing quality RNP procedures that have
significant benefits rather than focusing on the number of procedures, establishing
priorities for new routes and funding requirements for related airspace redesign projects,
ensuring air traffic controllers and pilots are properly trained on procedures before they
are implemented, and developing an effective oversight strategy for the third parties.


16
   RNAV is a method of navigation in which aircraft use avionics, such as Global Positioning Systems, to fly any
desired flight path without the limitations imposed by ground-based navigation systems. RNP is a form of
RNAV that adds on-board monitoring and alerting capabilities for pilots; thus, allowing aircraft to fly more
precise flight paths.
17
   OIG Testimony CC-2009-086, Challenges in Implementing Performance-Based Navigation in the U.S. Air
Transportation System, July 29, 2009.

2010 Top Management Challenges, Department of Transportation                                                24
CHAPTER 5

Moving Toward the Next Generation Air Transportation
System and Improving Performance of the National
Airspace System




Improving Programs for Developing the Next Generation of Air Traffic
Controllers Over the next decade, FAA plans to hire and train nearly 15,000 new
controllers to replace those who are close to retirement. Ensuring that these controllers
are properly trained and certified at FAA’s more than 300 air traffic control facilities is a key
watch item for the Department and Congress. Currently, new controllers require 2 to 3
years of training before they are able to fully certify at their assigned location.

Effective national oversight and accurate metrics for measuring progress are critical tools
for addressing this challenge. Since 2004, we have issued a series of reports focusing on
FAA’s programs for developing the air traffic controller workforce. Our work has
repeatedly found that improved national oversight is needed. FAA is taking some steps to
address our concerns such as appointing a national director for training and creating a
national training data base to centrally monitor progress at individual locations. However,
our current work shows that continued management focus is still needed.

Most recently, we reported that FAA does not have accurate metrics for effectively
monitoring training failures among newly hired air traffic controllers to identify trends and
take corrective actions. 18 Effective national oversight of controller training is even more
critical as FAA now relies heavily on outside contractor support to accomplish this mission.
In September 2008, FAA awarded a 10-year, nearly $900 million contract to Raytheon
Technical Services Corporation to provide extensive training support for controllers. Our
past work has shown that FAA has a poor track record in effectively managing and
overseeing large acquisition and support services contracts.

FAA must also focus on its programs for screening and placing new controllers with no
prior air traffic control experience—whose numbers increased from 7 percent of all newly
hired controllers to over 72 percent in just a year and a half. Initial results of our current
review of new controller screening and placement indicate that FAA needs to improve its
process for integrating new controllers into the workforce. Currently, FAA places new
controllers at locations based primarily on preferences rather than on potential abilities
and likelihood of success. In fact, controller candidates are assigned to a facility even
before entering initial training at the FAA Academy.



18
  OIG Report Number AV- 2009-059, Training Failures Among Newly Hired Air Traffic Controllers, June 8,
2009.

2010 Top Management Challenges, Department of Transportation                                             25
CHAPTER 5

Moving Toward the Next Generation Air Transportation
System and Improving Performance of the National
Airspace System




Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•   Challenges in Implementing Performance-Based Navigation in the U.S. Air
    Transportation System, July 29, 2009.
•   Training Failures Among Newly Hired Air Traffic Controllers, June 8, 2009.
•   Progress and Remaining Challenges in Reducing Flight Delays and Improving Airline
    Customer Service, May 20, 2009.
•   Aviation Industry Performance: A Review of the Aviation Industry in 2008, May 6, 2009.
•   Controller Staffing at Key California Air Traffic Control Facilities, April 23, 2009.
•   Federal Aviation Administration: Actions Needed To Achieve Mid-Term NextGen Goals,
    March 18, 2009.
•   Key Issues for Reauthorizing the Federal Aviation Administration, February 11, 2009.
•   Observations on Short-Term Capacity Initiatives, September 26, 2008.




For more information on the issues identified in this chapter, please contact
Lou Dixon, Assistant Inspector General for Aviation and Special Programs, at
(202)-366-0500.


2010 Top Management Challenges, Department of Transportation                                26
CHAPTER 6

Improving Contract Management and
Oversight




Source: AAA Foundation for Traffic Safety, used with permission




D
       OT spent about $5.5 billion in fiscal year 2009 19 on contracts for goods and services
       to support its mission, ranging from strategic planning and program management to
       software engineering and road maintenance. Our audits and investigations
continue to find weaknesses in the Department’s contract planning, administration, and
oversight. Recent Governmentwide efforts to stimulate the economy and reduce spending
heighten the need for DOT to address these weaknesses. 20

Key Challenges
•    Strengthening DOT’s suspension and debarment program to effectively safeguard
     against awards to improper parties.
•    Improving award-fee contracting processes to meet acquisition outcomes.
•    Maintaining high ethical standards among DOT employees and fund recipients.

19
   Based on data from the Federal Procurement Data System-Next Generation (FPDS-NG) provided by DOT’s
Office of the Senior Procurement Executive.
20
   In July 2009, the Office of Management and Budget issued a Governmentwide memorandum requiring
agencies to (1) review their existing contracts and acquisition practices and develop a plan to save 7 percent
of baseline contract spending by the end of fiscal year 2011 and (2) reduce by 10 percent the share of dollars
obligated in fiscal year 2010 under new contract actions awarded with high-risk contracting authorities.

2010 Top Management Challenges, Department of Transportation                                              27
CHAPTER 6

Improving Contract Management and Oversight




Strengthening DOT’s Suspension and Debarment Program To
Effectively Safeguard Against Awards to Improper Parties To better ensure
taxpayer dollars are spent wisely, Federal suspension and debarment (S&D) regulations
permit agencies to exclude unethical, dishonest, or otherwise irresponsible businesses and
individuals from receiving Federal contracts and grants. Over the past 2 years, we have
identified weaknesses in DOT’s S&D program that increase the risk of awarding contracts
and grants to irresponsible contractors—a risk that has escalated with the recent
disbursement of Recovery Act funds.

Of particular concern are the significant delays in making and reporting S&D decisions.
Timely S&D decisions and reporting are critical to helping ensure that government
contractors who have acted unethically do not receive additional government dollars. In
June 2005, DOT revised its S&D policy to include established deadlines for making S&D
decisions. However, our ongoing work indicates that Operating Administrations’ S&D
processes remain inefficient and time-consuming. For example, between June 2005 and
December 2008, FAA, FHWA, and FTA took an average of 301 days to make a suspension
decision and 415 days to make a debarment decision. DOT’s revised policy also calls for
timely reporting of S&D decisions to the General Services Administration (GSA) and annual
reporting of all S&D actions. Yet nearly half of the decisions we reviewed were not entered
into GSA’s Excluded Party Listing System in accordance with DOT’s 5-day requirement—and
almost one-quarter of these were delayed by more than 3 months.

DOT has taken several actions in response to our May 2009 ARRA Advisory, which
highlighted our concerns about the efficiency and effectiveness of its Suspension and
Debarment Program.21 For example, DOT issued a memorandum clarifying its policies for
making and reporting S&D actions. Also, DOT a recently drafted and distributed for review
a new S&D Order. Ensuring Operating Administrations understand and adhere to these
policies—along with other needed actions to address weaknesses we identified—will be
critical to establishing an efficient and effective S&D program.




21
  U.S. Department of Transportation, Office of Inspector General, ARRA Advisory – DOT’s Suspension and
Debarment Program, AA-2009-001, May 18, 2009. OIG reports can be found on our website:
www.oig.dot.gov.


2010 Top Management Challenges, Department of Transportation                                      28
CHAPTER 6

Improving Contract Management and Oversight




Improving Award-Fee Contracting Processes to Meet Acquisition
Outcomes As of June 2008, DOT had 47 cost-plus-award-fee contracts with a potential
value of approximately $5.5 billion, including about $271.4 million in potential award fees.
Award-fee contracts are intended to spur innovation to create cost and schedule
efficiencies and improve performance. Because payments to contractors are based on
their performance, award-fee contracts have the potential to minimize cost risks to the
Government. However, Congress recently expressed concerns about Governmentwide
contracting practices, including paying fees on award-fee contracts, regardless of whether
the fees paid were reasonable and linked to achieving acquisition outcomes. 22 In March
2009, the President stressed that Federal agencies have the capacity to carry out robust
and thorough management and oversight of its contracts in order to achieve program
goals, avoid significant overcharges, and curb wasteful spending. 23

From fiscal year 2003 through fiscal year 2007, DOT has paid contractors millions of dollars
in award fees on contracts that were not sufficiently justified, designed, and administered,
as required by regulations. Between February and October 2008, we issued several reports
that identified approximately $230 million that DOT could have better used had it
developed clear and measurable award-fee criteria for evaluating contractor performance
and justified the use of an award-fee contract by performing a cost/benefit analysis.24 For
example, FAA’s performance evaluation plan for its National Airspace System
Implementation Support II Bridge contract—valued at approximately $234 million with
about $18.2 million in award fees—did not include clear and measurable award-fee criteria
to adequately evaluate contractor performance, calling into question the reasonableness
of the high fees paid under the contract.

In response to our report on the National Airway Systems support services contract, valued
at approximately $316 million, FAA decided to modify the award-fee contract to a cost-

22
   Pub.L 110-417, Duncan Hunter National Defense Authorization Act for Fiscal Year 2009, Section 867,
requires that the Federal Acquisition Regulation be revised to ensure that all new contracts using award fees
link such fees to acquisition outcomes and establish standards for the percentage of award fees paid.
23
   Memorandum for the Heads of Executive Departments and Agencies on Government Contracting, March 4,
2009.
24
   See Interim Report on Award–Fee Criteria for the System Engineering and Technical Assistance II (SETA–II)
Contract, October 7, 2008; Interim Report on Award-Fee Criteria for the Transportation Information Project
Support (TRIPS) Contract, August 14, 2008; Interim Report on Award-Fee Criteria for the National Airway
Systems Contract, May 28, 2008; and Interim Report on Award-Fee Criteria for the National Airspace System
Implementation Support II Contract and Bridge Contract, February 27, 2008.


2010 Top Management Challenges, Department of Transportation                                             29
CHAPTER 6

Improving Contract Management and Oversight




plus-fixed-fee contract because the cost and time required for it to oversee, monitor, and
document the award-fee process outweighed the benefits to administer the contract. To
better ensure taxpayer dollars are used efficiently, FAA will need to continue to take such
actions. Moreover, it will need to provide guidance and training to its acquisition
workforce to ensure the use of these contracts is justified and that its award-fee contracts
are designed and administered appropriately to help ensure they achieve intended
acquisition outcomes. Without such actions, the costs risks to the American taxpayer are
significant.


Maintaining High Ethical Standards Among DOT Employees and Fund
Recipients Ensuring DOT employees, contractors, and their grantees focus on
preventing, detecting, and reporting potential fraud is essential to ensuring transparency
and accountability. DOT’s oversight of over $40 billion in Recovery Act funds heightens the
importance of vigilance on ethics training and awareness. While DOT has an annual ethics
training program for its acquisition and grant management personnel, the Department and
its Operating Administrations need to keep a sustained focus to fully implement this
important annual training requirement. The Department also needs to increase its
outreach to recipients of DOT funding to ensure they and their contractors have
meaningful ethics programs and sound internal controls to prevent and detect fraud
involving DOT funding.

Contract and grant fraud cases currently comprise about 36 percent of active OIG
investigations, and employee integrity cases represent about 10 percent. The following
examples of OIG investigations illustrate the need for DOT’s continued attention to
procurement integrity issues:

•   A former New Jersey FAA supervisor was sentenced to 2 years’ imprisonment for
    accepting bribes from a computer engineering company to which he issued $2.5 million
    in purchase orders.




2010 Top Management Challenges, Department of Transportation                            30
CHAPTER 6

Improving Contract Management and Oversight




•   The Federal Highway Administration (FHWA), using our lead, determined a project
    scheduled to receive $750,000 in ARRA funds in Washington State was ineligible for
    Federal participation. In this case, FHWA learned a county official overseeing the
    project had a potential conflict of interest due to ownership of property adjacent to the
    proposed project and his role in designing and acquiring property for the project.

•   Following the sentencing of two former FAA employees for Procurement Integrity Act
    violations, OIG began investigations of 31 FAA procurement officials. We initiated the
    investigations, in part, on comments made by a Federal judge at sentencing, who
    expressed appall by the many letters from FAA employees trying to justify the
    defendants’ behavior, which involved the release of confidential bid data to help a
    contractor win an FAA contract. Our investigations, which we are completing, revealed
    that approximately one-third of the 31 FAA officials accepted gratuities from prohibited
    sources.

DOT’s stewardship over billions of taxpayer dollars requires the Department to promote
and maintain high ethical standards among its employees and recipients of DOT funding.
For DOT employees, this involves fully implementing annual ethics training requirements.
Outside DOT, this involves expanding its outreach to ensure that contractors and grantees
prevent and detect fraud involving DOT funding.


Related Products The following related reports, testimonies, and advisories can be
found on the OIG website at http://www.oig.dot.gov.

• ARRA Advisory–DOT’s Suspension and Debarment Program, May 18, 2009.
• American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing the
    Department of Transportation, March 31, 2009.
• Interim Report on Award-Fee Criteria for the FAA’s System Engineering and Technical
    Assistance II (SETA–II) Contract, October 7, 2008.




2010 Top Management Challenges, Department of Transportation                             31
CHAPTER 6

Improving Contract Management and Oversight




• Interim Report on Award-Fee Criteria for the Transportation Information Project
   Support (TRIPS) Contract, August 14, 2008.
• Interim Report on Award-Fee Criteria for the National Airway Systems Contract, May
   28, 2008.
• Interim Report on Award-Fee Criteria for the National Airspace System Implementation
   Support II Contract and Bridge Contract, February 27, 2008.




For more information on the issues identified in this chapter, please contact
Mark Zabarsky, Assistant Inspector General for Procurement and Acquisition
Audits, at (202) 366-5225 and Timothy Barry, Principal Assistant Inspector
General for Investigations, at (202) 366-1967.



2010 Top Management Challenges, Department of Transportation                       32
CHAPTER 7

Enhancing the Ability To Combat Cyber
Attacks and Improving the Governance
of Information Technology Resources




Source: Federal Aviation Administration




I
    n May 2009, the White House reported on the urgent need to secure the Nation’s
    digital infrastructure from hackers, who “pose some of the most serious economic and
    national security challenges of the 21st Century.” 25 DOT’s financial systems manage
and disburse over $50 billion in Federal funds each year. At the same time, DOT’s
information technology (IT) budget covers more than 400 information systems across its 13
Operating Administrations—nearly two-thirds of which belong to the Federal Aviation
Administration (FAA). Given the scope and complexity of these systems, it is critical that
DOT effectively manage and secure its IT resources.

Key Challenges
•    Establishing a robust information security program to support the Department’s
     missions.
•    Increasing security protection and resilience of the air traffic control system to reduce
     the risks of cyber attacks.

25
  Cyberspace Policy Review Report “Assuring a Trusted and Resilient Information and Communication
Infrastructure,” May 2009.

2010 Top Management Challenges, Department of Transportation                                        33
CHAPTER 7

Enhancing the Ability To Combat Cyber Attacks and
Improving the Governance of Information Technology
Resources




•   Strengthening the privacy protection program to secure personally identifiable
    information.
•   Enhancing control of IT investments through oversight and accountability.

Establishing a Robust Information Security Program to Support the
Department’s Missions The Federal Information Security Management Act of 2002
requires each agency to establish an information security program to help protect agency
information systems. Last year, we reported that the Department’s information security
program was ineffective in meeting Federal IT security standards. While the Department
made progress in enhancing security protection during fiscal year 2009, it continues to face
several challenges.

First, persistent security deficiencies in key control areas—including management of
information security weaknesses, system authorization, configuration management,
security awareness and training, and contingency planning—continue to make the
Department vulnerable to cyber attacks. For example, in February 2009, hackers gained
unauthorized access to the personal records of 48,000 current and former FAA employees.
To build an information security program that adequately protects DOT from cyber threats,
the Department needs to address these security deficiencies in a manner that is
sustainable and flexible enough to allow DOT to quickly adapt to avert new threats.

Second, the Department’s Chief Information Officer (CIO) continues to lack sufficient
influence over DOT’s Operating Administrations. Unlike some Federal agencies, DOT’s CIO
does not have budget or performance evaluation authority over Operating
Administrations. In response to this concern, the CIO developed performance objectives to
be included in each modal CIO’s performance plan. However, the CIO’s office does not
provide input into modal performance evaluations. Until the Department’s CIO can
influence Operating Administration’s CIO performance, DOT policy may not get
implemented.

Finally, DOT has yet to meet OMB’s October 2008 deadline for issuing Personal Identity
Verification (PIV) cards to employees and contractors—a key governmentwide initiative to
secure Federal information and information systems. The responsibility of managing PIV
card issuance is shared among the CIO, the Assistant Secretary of Administration, and FAA.
As of September 2009, only 31 percent of DOT’s approximately 75,000 employees and
contractors had a PIV card. Despite this significant lag in implementing OMB’s directive,

2010 Top Management Challenges, Department of Transportation                            34
CHAPTER 7

Enhancing the Ability To Combat Cyber Attacks and
Improving the Governance of Information Technology
Resources




DOT has yet to develop a plan to complete issuance of PIV cards to its remaining
employees and contractors. In addition, the Department lacks an approved process for
issuing PIVs and does not adequately secure the information systems used to store,
process, and transmit personally identifiable information. Until DOT takes action to
address these weaknesses, the Department not only risks issuing PIVs to non-DOT
employees and contractors, it cannot secure personal information such as Social Security
numbers (SSN).


Increasing Security Protection and Resilience of the Air Traffic Control
System To Reduce the Risks of Cyber Attacks To modernize air traffic control
systems, FAA is increasingly relying on the use of Internet Protocol (IP)-based commercial
software rather than proprietary software. While this strategy has enabled FAA to
efficiently collect and disseminate information to facilitate air traffic control services, it
poses a higher security risk due to the vulnerabilities inherent in using commercial IP
products.

Web applications used in supporting air traffic control systems have been vulnerable to
attacks. For example, in August 2008, hackers executed malicious codes and took control
of FAA’s critical network servers. We were also able to gain unauthorized access to an air
traffic control system used to monitor critical power supply at six en route centers—which
control high-altitude traffic and disseminate flight plan information to all other air traffic
control facilities. While most cyber attacks to date have primarily disrupted FAA’s traffic
control mission-support function, the threat to real-time control services exists. FAA needs
to ensure Web applications are configured according to security standards.

The Department’s Cyber Security Management Center (CSMC) has limited capability to
monitor and detect cyber incidents in air traffic control facilities. When cyber incidents
have been detected, remediation has not always been timely. For example, none of the air
traffic control operational systems at FAA air traffic control facilities were monitored by
CSMC, and 17 percent of the security incidents detected at FAA in fiscal year 2008
remained unresolved at the end of the year. Without comprehensive monitoring and
timely remediation of identified cyber threats, air traffic control systems remain vulnerable
to catastrophic subterfuge. FAA needs to assign priority to implementing its corrective
actions.



2010 Top Management Challenges, Department of Transportation                              35
CHAPTER 7

Enhancing the Ability To Combat Cyber Attacks and
Improving the Governance of Information Technology
Resources




FAA also lacks sufficient on-site review procedures to ensure required security controls are
in place. FAA has enhanced the process used to review and certify the adequacy of
security for air traffic control systems deployed to operational sites. However, the process
still lacks an effective means to target security reviews for operational sites at risk of having
unauthorized system configurations. These configuration variances have led to security
weaknesses and disrupted system operations. For example, flight data supporting various
services had to be manually disseminated. In addition, security reviews conducted at
operational sites to ensure proper implementation of security controls relied primarily on
interviews with system operators and lacked examination and testing. FAA needs to
strengthen security reviews of air traffic control systems supporting live operations.

In the event air traffic control systems are disrupted—either maliciously or inadvertently—
a Homeland Security Presidential Directive requires the Department to resume essential
services in a timely manner to minimize the impact on the Nation’s economy and citizens’
mobility and safety. FAA is in the final stage of implementing a recovery center where
operations would be resumed if any en route center becomes inoperable. However, FAA
must conduct a more comprehensive analysis of the impact on domestic air travel and
demonstrate that activating the recovery center will not compromise its safety.

The potential for exploitation of air traffic control systems is expected to increase with
FAA’s implementation of the NextGen—a multibillion dollar system that will adopt IP-
based commercial software and Web-enabled design technologies to collect, exchange,
and disseminate air traffic information among controllers, pilots, support staff, and
industry partners. While NextGen has great potential to improve air travel, the White
House Cyberspace Policy Review report emphasized the importance of developing a robust
security design for NextGen. Another concern is the level of oversight needed to ensure
security is properly reserved in contractor-owned systems, such as NextGen’s nationwide
ground infrastructure, and their interface with the rest of air traffic control infrastructure.




2010 Top Management Challenges, Department of Transportation                                 36
CHAPTER 7

Enhancing the Ability To Combat Cyber Attacks and
Improving the Governance of Information Technology
Resources




Strengthening the Privacy Protection Program to Secure Personally
Identifiable Information In fiscal year 2009, the Department made progress in
addressing its statutory responsibility to protect personally identifiable information. In
response to our previous recommendations, the Department completed a Breach
Notification Policy, developed a status report to track weekly meetings with modal privacy
personnel, held advanced training sessions for modal privacy personnel, and performed an
analysis on all DOT IT systems to identify those containing personally identifiable
information.

Despite these actions, personally identifiable information remains unsecure—in part
because the Department has been unable to get an accurate count of the systems that
contain this information. Last year, the Department reported that 109 out of 425 IT
systems contained personally identifiable information. Further analyses identified
additional systems, but the results of these analyses were inconsistent. In 2009, the
Department reported three separate counts over 5 months, ranging from 132 to 201.
While system inventory is not static, the magnitude of the flux suggested the need for
further verification. Without an accurate count, DOT has no assurance that its systems
with personally identifiable information are properly secured and meet regulatory
requirements. For those systems that were consistently identified as containing personally
identifiable information, not all were secured according to Department requirements,
leaving them vulnerable to unauthorized access. For example, we found one system that
lacked basic security controls contained personally identifiable information on 3 million
individuals. To secure personally identifiable information, the Department must finalize
the inventory and properly secure the systems.

To minimize the risks associated with the unauthorized disclosure of personally identifiable
information, OMB required agencies to eliminate the unneeded use of SSNs by November
2009. While DOT has preliminarily identified 70 systems that need to be evaluated for SSN
elimination, it does not plan to complete the elimination until 2015. To protect the public’s
privacy and comply with OMB requirements, the Department must assign a priority to
meet the mandate of eliminating unneeded use of SSNs in a more timely manner.

The reporting structure of the Chief Privacy Officer has also contributed to deficiencies in
privacy protection. Specifically, the departmental CIO is also the designated Chief Privacy
Officer. However, the manager responsible for privacy program operations does not report
directly to the Chief Information/Privacy Officer. According to privacy experts, privacy


2010 Top Management Challenges, Department of Transportation                             37
CHAPTER 7

Enhancing the Ability To Combat Cyber Attacks and
Improving the Governance of Information Technology
Resources




officials require direct access to top management to better ensure the timely
implementation of sound privacy policies and processes. In view of continued deficiencies
in this area, the Department needs to re-evaluate the reporting structure of the privacy
program.


Enhancing Controls of IT Investments through Oversight and
Accountability The Clinger-Cohen Act of 1996 26 requires Federal agencies to establish
effective management structures to govern and improve IT investments. With close to
$3 billion annual IT investments, the Department is responsible for managing one of the
largest IT portfolios among civilian agencies and relies on cost and schedule variances for
early identification of investments that require management attention. Both OMB and
the Department require Operating Administrations to use Earned Value Management
(EVM)—which compares the value of work accomplished in a given period against the
planned value of work scheduled for that period—to compile the cost and schedule
variances. However, Operating Administrations did not specify EVM requirements in
acquisition contracts; contractors’ systems for compiling EVM data were not certified, as
required by OMB; and standard work breakdown structures were not used in compiling
reliable EVM measures.          In response, the Department issued detailed EVM
implementation guidance. The Department needs to evaluate whether Operating
Administrations have implemented the EVM system in compliance with Department
guidance.

Another area requiring senior management’s continued attention is the monitoring and
oversight of the Department’s major IT investment projects. The Department initially
established an Investment Review Board to oversee DOT’s major IT investments. In fiscal
year 2007, the Department delegated oversight responsibility to Operating
Administration review boards, which include modal CIOs, Chief Financial Officers, Heads
or Chiefs of Contracting, Chief Counsels, and Administrators (if appropriate). However,
Operating Administrations did not perform this duty properly. For example, some
Operating Administrations were not meeting to review investments. The Department
needs to hold Operating Administrations’ senior management accountable for overseeing
the performance of their major IT investment projects.



26
     Pub.L. 104-106, Information Technology Management Reform Act of 1996, February 10, 1996.

2010 Top Management Challenges, Department of Transportation                                    38
CHAPTER 7

Enhancing the Ability To Combat Cyber Attacks and
Improving the Governance of Information Technology
Resources




Related Products The following related reports, testimonies, and advisories can
be found on the OIG website at http://www.oig.dot.gov.

•   Data Integrity of the Commercial Driver’s License Information System, July 30, 2009.
•   Web Applications Security and Intrusion Detection in Air Traffic Control Systems, May
    4, 2009.
•   Department’s Implementation of Earned Value management and Security Cost
    Reporting, April 24, 2009.
•   DOT Information Security Program, October 8, 2008.
•   DOT Privacy Policies and Procedures, September 9, 2008.




For more information on the issues identified in this chapter, please contact,
Rebecca Leng, Assistant Inspector General for Financial and Information
Technology Audits, at (202) 366-1407.



2010 Top Management Challenges, Department of Transportation                               39
CHAPTER 8

Developing a Funding Framework for the
Next Surface Transportation
Reauthorization




Source: Missouri Department of Labor and Industrial Relations




I
    n fiscal year 2009, the Federal Government spent over $38 billion to help states
    preserve and enhance America’s roadways. Despite this spending, over one-half of the
    Nation’s roads are in less than good condition and more than one-quarter of the
Nation’s bridges are structurally deficient or functionally obsolete. Further, this spending
is mostly directed at existing infrastructure not on new capacity. Over the past few
decades, the total number of miles traveled by automobiles and trucks roughly doubled,
while total number of highway lane miles grew only 4.4 percent. The next surface
transportation reauthorization will need to provide a comprehensive funding framework
for addressing infrastructure needs.

Key Challenges
•   Ensuring the short-term solvency of the Highway Trust Fund (HTF).
•   Assessing the annual Federal funding needed to preserve and enhance surface
    transportation infrastructure.
•   Developing a comprehensive funding framework for the future.




2010 Top Management Challenges, Department of Transportation                            40
CHAPTER 8

Developing a Funding Framework for the Next Surface
Transportation Reauthorization




Ensuring the Short-Term Solvency of HTF HTF confronted a severe cash crisis
during each of the past 2 fiscal years, necessitating an $8 billion and $7 billion cash infusion
from the general fund in fiscal years 2008 and 2009, respectively. Several actions
contributed to this crisis.

First, beginning in FY 2001, halfway through the period authorized by the Transportation
Equity Act for the 21st Century (TEA-21), outlays began to outpace receipts and erode a
cash surplus. The surplus was further eroded following the enactment of the Safe,
Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for Users (SAFETEA-LU)
in 2005, which increased contract authority over TEA-21 without an associated increase in
receipts (see figure 8-1).


Figure 8-1. Highway Account - Comparison of Outlays to Receipts under SAFETEA-LU,
Fiscal Year in Billions of Dollars




Note: Fiscal years 2008 and 2009 receipts do not include the $8 billion and $7 billion general fund transfers,
respectively.
Source: Federal Highway Administration



2010 Top Management Challenges, Department of Transportation                                              41
CHAPTER 8

Developing a Funding Framework for the Next Surface
Transportation Reauthorization




Second, the unforeseen decline in vehicle miles travelled over the past couple of years—
due to high fuel prices and a lagging economy—also caused the Highway Account balance
to decline more rapidly than anticipated (see figure 8-2). Barring congressional
intervention, the Department would have been forced to reduce or suspend
reimbursements to states for eligible highway expenditures.


Figure 8-2. Highway Account – Ending Cash Balance under SAFETEA-LU, Fiscal Year in
Billions of Dollars




Source: Federal Highway Administration


Finally, because the current highway authorization, SAFETEA-LU, expired at the end of
fiscal year 2009 and was extended rather than reauthorized, measures to address future
shortfalls in HTF have yet to be addressed. To avoid disruptions in payments to states, the
Department must work with Congress to manage HTF’s on-going solvency concerns and
replenish HTF funds.




2010 Top Management Challenges, Department of Transportation                           42
CHAPTER 8

Developing a Funding Framework for the Next Surface
Transportation Reauthorization




Assessing the Annual Federal Funding Needed To Preserve and
Enhance Surface Transportation Infrastructure While the Department and
Congress agree that the surface transportation infrastructure plays a key role in the growth
of the Nation’s economy and that an increase in Federal spending in support of surface
transportation is needed, what the increase should be has yet to be determined.

The House Transportation and Infrastructure Committee recently proposed legislation that
would channel $500 billion—$450 billion for highway, public transportation and safety
programs and $50 billion for high speed rail—in Federal funding to support state surface
transportation programs over 6 years. This proposed funding level is significantly higher
than the spending levels laid out in SAFETEA-LU, which authorized $244 billion in Federal
funding over a 5-year period.

While the Department recognizes the need for an increase in Federal spending in support
of state highway programs, it has yet to propose spending levels for the next surface
transportation reauthorization. Consequently, the Department must work closely with
Congress and other stakeholder groups to develop a consensus on what an appropriate
level of Federal surface infrastructure investment should be.


Developing a Comprehensive Funding Framework for the Future The
Department’s ability to reimburse states for authorized expenditures depends on the HTF
balance, which has been declining steadily—partly because the fuel tax rate is not adjusted
for inflation and has not been increased since 1993. Essentially, in response to
unprecedented increases in fuel prices during fiscal year 2008, followed by the ongoing
economic recession, motorists began cutting back on their driving and fuel purchases and
purchases of new heavy trucks dropped dramatically, thereby generating fewer tax
receipts for HTF. Since the beginning of SAFETEA-LU, the current funding mechanism was
barely able to raise $30 billion to $34 billion annually for the Highway Account compared to
annual outlays of $33 billion to $38 billion, which led to a significant deterioration in the
cash available to HTF’s Highway Account.

The current funding mechanism is unable to generate adequate cash receipts to meet
current outlay levels, let alone the higher levels implied by an increase in the Federal
funding for surface transportation. Since the Administration has opposed any increase in
the gas tax given the economic environment, the Department will have to work closely


2010 Top Management Challenges, Department of Transportation                             43
CHAPTER 8

Developing a Funding Framework for the Next Surface
Transportation Reauthorization




with Congress, states, and other stakeholders to evaluate all options—including potential
changes to the current funding mechanism as well as the use of alternative funding
mechanisms—to address the resulting funding gap.

The Department must work with Congress to enact a comprehensive funding framework
for the next surface transportation reauthorization that sufficiently increases HTF’s cash
receipts to match its outlays. Barring this, HTF will continue to experience cash shortfalls
that could impede the flow of Federal funding for surface transportation.


Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•   Letter to Senate Budget Committee Ranking Member Gregg Regarding DOT’s
    Projections of Highway Trust Fund Solvency, June 24, 2009.
•   Growth in Highway Construction and Maintenance Costs, September 26, 2007.
•   Report on Federal Highway Administrations Oversight of Load Ratings and Postings on
    Structurally Deficient Bridges on the National Highway System, March 21, 2006.




For more information on the issues identified in this chapter, please contact
Mitchell Behm, Program Director for Amtrak, High-Speed Rail, and Economic
Analysis, at (202) 366-1995.



2010 Top Management Challenges, Department of Transportation                            44
CHAPTER 9

Strengthening the Department’s
Acquisition Workforce




Source: Colorado Department of Transportation, used with permission




D
        OT’s acquisition workforce is responsible for managing and overseeing the
        Department’s contracts for goods and services, which DOT estimated at
        $5.5 billion 27 in fiscal year 2009. Since 2001, human capital management has been
identified as a Governmentwide high-risk area. With the expanding and increasingly
complex acquisition workload, addressing this risk is critical. 28 Succession planning is a
major concern across the Government—at DOT alone, about 46 percent of contracting
specialists are eligible for retirement in less than 5 years. DOT has completed several initial
assessments of its acquisition workforce to meet OMB and Office of Personnel
Management mandates. However, DOT needs to do more to ensure it has the needed size
and skill levels to support its mission, especially given its need to oversee billions of dollars
in Recovery Act funds.




27
   Based on data from the Federal Procurement Data System-Next Generation (FPDS-NG) provided by DOT’s
Office of the Senior Procurement Executive.
28
   GAO, High-Risk Series, An Update, January 2009, GAO-09-271.


2010 Top Management Challenges, Department of Transportation                                     45
CHAPTER 9

Strengthening the Department’s Acquisition Workforce




Key Challenges
•    Addressing acquisition workforce retention and recruitment concerns.
•    Ensuring a sufficient and competent acquisition workforce to meet mission needs.


Addressing Acquisition Workforce Retention and Recruitment
Concerns DOT’s acquisition workforce is facing a potential retirement wave. According
to the Federal Acquisition Institute, the percentage of current employees in DOT’s
contracting series29 who are eligible to retire will more than triple—from 20 percent (77
employees) to 63 percent (241 employees)—between fiscal years 2008 and 2018 (see
figure 9-1). This rate is about 10 percent higher than the average for civilian agencies. The
bulk of contract specialists eligible to retire are experienced mid-managers, heightening
the need for DOT’s attention. While DOT developed a Strategic Acquisition Workforce
Succession Plan in 2009, the plan is based on a Department survey of less than half of its
acquisition workforce and may not adequately capture retirement rates. 30 For example,
the plan shows an estimated 27 percent of DOT’s contract series workforce will be eligible
to retire in 2014, while the Federal Acquisition Institute estimates 47 percent will be
retirement eligible in 2013. To better capture retirement rates, DOT may need to
reevaluate its succession plan and the underlying acquisition workforce data upon which it
is based.




29
   Under U.S. Office of Personnel Management position classification standards, the contracting series (GS-
1102) includes positions that manage, supervise, perform, or develop policies and procedures for
professional work involving the procurement of supplies, services, construction, or research and
development using formal advertising or negotiation procedures; the evaluation of contract price proposals;
and the administration or termination and close out of contracts.
30
   DOT had a 44.7 percent survey response rate; 553 of DOT’s acquisition employees in the following work
areas responded to the survey: contracting (1102s), COTRs, and project managers.

2010 Top Management Challenges, Department of Transportation                                           46
CHAPTER 9

Strengthening the Department’s Acquisition Workforce




Figure 9-1. Retirement Eligibility of DOT’s Contracting Series Workforce by Fiscal Year

  400

  350

  300

  250

  200

  150
                                                               241
  100                                   176

    50            77

     0
                 2008                   2013                  2018
                  Retirement Eligible    Total Number

Source: Federal Acquisition Institute Fiscal Year 2008 Annual Report on the Federal Acquisition Workforce


DOT has taken actions to address recruitment and retention issues facing its acquisition
workforce, including establishing an Acquisition Workforce Working Group, comprised of
contracting and human resource officials from across the Department, to focus on these
issues. FAA similarly created action teams to develop plans and identify resources required
to implement strategies for core National Airspace Systems projects.

DOT has defined acquisition as a mission critical function. As such, the Department needs
to keep moving forward in implementing initiatives to strategically assess its acquisition
workforce to ensure it is sufficient and competent.




2010 Top Management Challenges, Department of Transportation                                                47
CHAPTER 9

Strengthening the Department’s Acquisition Workforce




Ensuring a Sufficient and Competent Acquisition Workforce To Meet
Mission Needs In February 2009, DOT issued its first Strategic Acquisition Workforce
Succession Plan.31 However, according to a senior Office of Senior Procurement Executive
official responsible for workforce issues, DOT did not thoroughly assess its acquisition
workforce and contract needs across the Department. While DOT has completed an
inventory of acquisition positions for contracting officers and specialists, program
managers, and contracting officer technical representatives (COTR), the plan does not
show the relationship between its existing and planned contract awards and the
acquisition workforce needed to accomplish this work. The Department has also identified
hiring, retention, and skills development strategies to address its acquisition workforce
needs. However, Operating Administrations have not made sufficient progress in
implementing these strategies—in part because DOT has not determined the optimal size
for its workforce or planned for obtaining needed resources and staff to implement the
strategies and the new demands of ARRA.

At the same time, DOT issued an Acquisition Workforce Gap Analysis and Improvement
Plan that highlights weaknesses in several key competencies in its contracting, COTR, and
project manager functions (see table 9-1). 32

Table 9-1. Key Competency Gaps by Function
Contracting                           COTRs                                 Project Managers
• Defining government                 • Pre-award communication             • Business cost-estimating and
  requirements                        • Contract management                    financial management
• Defining performance-based                                                • Life cycle logistics
  acquisitions                                                              • Contracting
• Conducting proposal analysis
  and evaluation
Source: OIG analysis of DOT’s Acquisition Workforce Gap Analysis and Improvement Plan



DOT is designing strategies to address several of these gaps, and in June 2009, submitted a
progress report to OPM on its efforts. For example, DOT reported that the Office of the
Senior Procurement Executive has begun to develop a training curriculum for program

31
   DOT developed the -plan to meet National Defense Authorization Act, Fiscal Year 2008, Pub.L. 110-181,
855, which required agencies to address recruitment and training needs of their acquisition workforce.
32
   The plan used results from the Federal Acquisition Institute’s (FAI) 2008 survey of the Federal acquisition
workforce, based on the FAI’s Federal Competency Assessment Tool-Acquisition Workforce.

2010 Top Management Challenges, Department of Transportation                                                 48
CHAPTER 9

Strengthening the Department’s Acquisition Workforce




managers, and that several Operating Administrations developed their own training plans
for their program managers. While training strategies are likely needed given project
management’s role in the day-to-day planning and oversight of acquisitions, it is not clear
that DOT’s efforts are appropriately targeted because its gap analysis is based on the
Department’s survey of less than half of its acquisition workforce. To better prioritize its
acquisition workforce development strategies, DOT will need to base future improvements
on surveys that are more representative of its workforce.

FAA, whose procurement function is autonomous from DOT’s, has made some progress in
developing an acquisition workforce plan and created action teams to implement it. 33 The
plan is based on FAA’s Lifecycle Management Process, which is used to manage the
acquisition of major capital investments supporting the National Airspace System.
Consistent with other Federal agencies that manage large procurements, FAA broadly
defines its acquisition workforce to include employees in disciplines such as
research/engineering, business and finance, and test and evaluation. Based on its need to
sustain systems and support new Next Generation Air Transporation System programs,
FAA’s plan identifies a requirement to increase the acquisition workforce by 35 percent (as
least 350 positions) through fiscal year 2011.34 FAA faces significant challenges in
implementing its acquisition workforce plan, including executing a sourcing/hiring plan;
reviewing acquisition supply/demand across the organization to meet priorities; creating
an acquisition career development plan; and institutionalizing an acquisition workforce
planning process.

DOT also established career development programs to help ensure that its acquisition
workforce meets Federal Acquisition Institute and OMB certification requirements. FAA ,
while not covered by these mandates, established similar career development programs.
However, all of DOT’s workforce is not yet certified to the level as required for their
positions. DOT will need to ensure that its managers provide sufficient funds and time for
staff to complete required certification and training requirements and that its workforce
follows through to meet these requirements.




33
   FAA is exempt from the Federal Procurement Policy Act.
34
   Increased positions are based on a comparison of existing positions for the first quarter of fiscal year 2009
to projected staffing needs at the end of fiscal year 2011.

2010 Top Management Challenges, Department of Transportation                                                 49
CHAPTER 9

Strengthening the Department’s Acquisition Workforce




Related Product The following related report can be found on the OIG website at
http://www.oig.dot.gov.

• American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing the
   Department of Transportation, March 31, 2009.




For more information on the issues identified in this chapter, please contact
Mark Zabarsky, Assistant Inspector General for Procurement and Acquisition
Audits, at (202) 366-5225.




2010 Top Management Challenges, Department of Transportation                  50
CHAPTER 10

Successfully Implementing the Newly
Created Multi-Billion Dollar High-Speed
Intercity Passenger Rail Program




I
    n April 2009, the President, along with the Vice President and the Transportation
    Secretary, announced a new vision for a national network of high-speed rail corridors.35
    Implementing DOT’s High-Speed Intercity Passenger Rail (HSIPR) Program represents a
significant change to the Nation’s transportation system—one that will require substantial
planning on the part of states and the Federal Government. Three key pieces of legislation
establish the framework for HSIPR: DOT Appropriations Acts for fiscal years 2008 and 2009,
the Passenger Rail Investment and Improvement Act of 2008 (PRIIA), and the American
Recovery and Reinvestment Act of 2009 (ARRA).

Key Challenges
•    Designing and implementing the HSIPR program from the ground up.
•    Establishing policies and practices for the program’s grant lifecycle process and
     oversight activities.




35
  High-speed rail is a family of transportation options that address longer-distance passenger transport
needs in heavily populated corridors.

2010 Top Management Challenges, Department of Transportation                                               51
CHAPTER 10

Successfully Implementing the Newly Created Multi-
Billion Dollar High-Speed Intercity Passenger Rail
Program




Designing and Implementing the HSIPR Program from the Ground Up
The HSIPR program demands that the Federal Railroad Administration (FRA) undergo a
major organizational transformation, from a relatively small agency focused primarily on
rail safety issues to a grant-making agency responsible for starting up a large, long-term
program—one that is likely to receive significant public attention and scrutiny. Taking on
the new responsibilities that come with this transformation has been a challenge for FRA.
Consequently, FRA asked Congress to increase the amount of ARRA funds it can use to set
up, administer, and oversee the HSIPR program from $20 million to $80 million—or 1
percent of its total ARRA funding. FRA has also requested an additional 27 full-time
equivalents (FTE) in its fiscal year 2010 budget—a large portion of which are planned to
help support the HSIPR program .36

FRA has yet to acquire sufficient capacity to effectively manage the program, and start-up
deadlines are tight. FRA was required to issue its strategic plan for HSIPR by April 2009—
just 2 months after ARRA’s enactment—and interim guidance by June 2009. Funding for
HSIPR is divided among four tracks.

•    Track 1 focuses on intercity passenger rail projects funded under ARRA and under
     PRIIA. Eligible projects include infrastructure, facilities, and equipment. These projects
     also fall under the competitive grant programs authorized by Section 301 or Section
     302 of PRIIA, for the benefit of existing services, including those that support
     development of high-speed rail.
•    Track 2 focuses on new high-speed rail corridor and intercity passenger rail services, or
     substantial upgrades to existing corridor services. According to FRA’s ARRA-required
     interim guidance, track 2 programs represent the long-term emphasis of the HSIPR
     program. In addition to being eligible under PRIIA section 301, track 2 projects are also
     eligible under PRIIA Section 501.
•    Track 3 focuses on establishing a pipeline of future high-speed rail and intercity
     passenger rail projects and service development programs. This will be done by
     advancing planning activities for applicants at an earlier stage of the development
     process. Under track 3, FRA will enter into cooperative agreements for preparing
     service development programs, state rail plans, and service-level environmental
     documents.
36
   These staff are to be distributed between FRA’s Office of Railroad Development (22 positions), Office of
Chief Counsel (2 positions), and Office of Financial Management and Administration (3 positions). FRA
already started hiring and anticipates these new staff will be on-board by the second quarter of FY 2010.

2010 Top Management Challenges, Department of Transportation                                              52
CHAPTER 10

Successfully Implementing the Newly Created Multi-
Billion Dollar High-Speed Intercity Passenger Rail
Program




•   Track 4 provides an alternative for projects that would otherwise fit under track 1, but
    requires at least a 50-percent non-Federal funding match.

The program’s grant selection and award process for each of its four tracks was also fast
paced (see table 10-1).

Table 10-1. ARRA Track Deadlines According to FRA’s Interim Guidance
Track 1                    Track 2               Track 3               Track 4
Preapplication
July 10, 2009              July 10, 2009         July 10, 2009         July 10, 2009
Application
Aug. 24, 2009              Oct. 2, 2009          Aug. 24, 2009         Aug. 24, 2009
FRA Obligation
By Sept. 30, 2010          By Sept. 30, 2011     As soon as possible   As soon as possible
                                                 after selection       after selection
Project(s) Completion
Within 2 years of          Sept. 30, 2017        Within 2 years of     Within 5 years of
obligation                                       obligation            obligation
Source: Federal Railroad Administration


In the face of these tight deadlines, FRA has acknowledged it lacks the capacity to start up
and effectively manage HSIPR—shortfalls it attributes to the limited availability of staff to
dedicate to the program and the limited operating funds authorized in ARRA. According to
FRA officials, the money currently allotted for program management will be depleted
during the grant evaluation and award phase, leaving no money for grant administration
oversight.


Establishing Policies and Practices for the Program’s Grant Lifecycle
Process and Oversight Activities While FRA officials recognize the challenge
before them, the Agency has not finalized or fully documented its program implementation
strategy. FRA has developed a grants management master plan (GMMP) that contains over
400 action items, but the plan does not contain deadlines or contingencies for performing




2010 Top Management Challenges, Department of Transportation                                 53
CHAPTER 10

Successfully Implementing the Newly Created Multi-
Billion Dollar High-Speed Intercity Passenger Rail
Program




critical pre-award tasks, such as establishing standard grant agreements and standard
operating procedures, tools, or templates to help oversee projects and conduct site visits. 37

FRA planned to begin awarding its first round of grants in Fall 2009. However, following
receipt of our draft report that discussed the risks associated with trying to award the
grants that early without a fully documented process, FRA decided to delay the awards
until early 2010.

In addition, while the initial process of evaluating applications has been completed,
questions still remain as to how FRA will evaluate cost, schedule, and ridership estimates.
For example, FRA has not fully determined how it will assess the accuracy of applicants’
rider and revenue forecasts—a key aspect of how the merit and feasibility of proposed
projects will be determined. FRA officials indicated that, given the tight time frames placed
on the Agency by ARRA, they are currently addressing only the tasks they deem to be on
the “critical path.” Concurrent implementation and integration of a new electronic
management system for administering grants further heightens implementation risks in the
rush to meet statutory deadlines. 38


Related Products The following related reports and testimonies can be found on the
OIG website at http://www.oig.dot.gov.

•    American Recovery and Reinvestment Act: DOT’s Implementation Challenges and the
     OIG’s Strategy for Continued Oversight of Funds and Programs, April 30, 2009, and April
     29, 2009.
• American Recovery and Reinvestment Act of 2009: Oversight Challenges Facing the
     Department of Transportation,” March 31, 2009.

For more information on the issues identified in this chapter, please contact
Mitch Behm, Program Director for Amtrak, High-Speed Rail, and Economic
Analysis, at (202)-366-1995.

37
   With the assistance of a contractor, FRA expects to complete a grant management manual, which will
include comprehensive grants management policies and procedures by March 2010.
38
   ARRA requires FRA to select all projects by September 30, 2012.

2010 Top Management Challenges, Department of Transportation                                            54
EXHIBIT. COMPARISON OF FY 2010 AND FY 2009 TOP
MANAGEMENT CHALLENGES


          Items in FY 2010 Report                          Items in FY 2009 Report
• Maximizing the Department’s Economic
  Recovery Investments
• Enhancing Surface Safety Programs to          • Enhancing and Deploying Programs for
  Reduce Injuries and Fatalities While Defining   Reducing the Serious Consequences of
  a New Federal Role in Transit Safety            Surface Transportation Crashes

• Maximizing Federal Surface Infrastructure   • Maximizing Current Highway and Transit
  Investments by Helping States Better          Infrastructure Investments
  Allocate Resources and Providing Effective  • Preventing Catastrophic Failures and
  Oversight                                     Obsolescence in the Nation’s Aging Surface
                                                Transportation Infrastructure
• Addressing Human Factors and                • Enhancing Aviation Safety and Maintaining
  Strengthening the Regulatory Oversight        Confidence in FAA’s Ability to Provide
  Framework for Aviation Safety                 Effective Oversight of a Rapidly Changing
                                                Industry
• Moving Toward the Next Generation Air       • Operating the National Airspace System
  Transportation System and Improving           While Developing and Transitioning to the
  Performance of the National Airspace System   Next Generation Air Transportation System

• Improving      Contract    Management      and • Improving Contract Operations and
  Oversight                                        Maintaining Procurement Integrity

• Enhancing the Ability to Combat Cyber           • Protecting Against Increasing Cyber Security
  Attacks and Improving the Governance of           Risks and Managing Limited Information
  Information Technology Resources                  Technology Resources More Effectively

• Developing a Funding Framework for the      • Developing a Plan to Address Projected
  Next Surface Transportation Reauthorization   Highway and Transit Funding Shortfalls

• Strengthening the Department’s Acquisition      • Improving Contract Operations and
  Workforce                                         Maintaining Procurement Integrity

• Successfully Implementing the Newly
  Created Multi-Billion Dollar High-Speed
  Intercity Passenger Rail Program
                                                  • Enhancing Mobility and Reducing
                                                    Congestion in America’s Transportation
                                                    System




2010 Top Management Challenges, Department of Transportation                                 55
       APPENDIX: DEPARTMENT RESPONSE


           ~
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation


           ACTION: Response to Office ofInspector General (OIG)
Subject:                                                                       Date:    November 6,2009
           draft report, "Top Management Challenges for Fiscal Year
           2010"                                   ~

  From:
           Christopher Bertram    C I~
           Assistant Secretary for Budget an Programs, and                  Reply to
                                                                            Attn. of:
           Chief Financial Officer

    To:    Calvin L. Scovel III
           Inspector General

           During this past year, the Department of Transportation (DOT) demonstrated once again a
           capability to not only meet, but exceed expectations in service to the Nation. Faced with the
           daunting challenge of implementing, within unprecedented timeframes, two major programs,
           the Car Allowance Rebate System (CARS) and the American Recovery and Reinvestment
           Act of2009 (Recovery Act), the employees of DOT exceeded all expectations. This required
           extraordinary dedication and hard work. Together, these programs stimulated economic
           activity in the Nation, focused job creation in some of the country's most economically
           distressed areas, and improved the environment and reduced energy consumption. The
           CARS progrru.n replaced almost 700,000 cars with vehicles that were on average 60 percent
           more efficient. The Recovery Act will generate a large number of transportation-related
           jobs, while providing numerous benefits including improving services to some of our
           Nation's most vulnerable populations.

           Safety is our Top Priority

           The Secretary has reaffirmed the Department's long-standing commitment to improve
           aviation and surface transportation safety as its top priority. DOT has demonstrated its
           commitment to safety by meeting 8 of its 10 safety goals this year. In particular, DOT
           continues to focus on safety initiatives that reduce the highway fatality rate. The Department
           is moving forward with other innovative new initiatives and approaches intended to make the
           best possible use of available expertise and resources, starting with an intermodal approach to
           safety. Recently, the Secretary formed a Transportation Safety Council to tackle critical
           transportation safety issues. The Council will ensure that there is a formal process for sharing
           data, best practices, and strategies among the Department's operating administrations. The
           Council also will serve a critical broad-based safety advocacy role and help break down
           organizational stovepipes, continuing the intermodal functionality we saw demonstrated so well
           in the Department's approach to implementing the Recovery Act. The intent of the Council is to
           provide an effective forum for an action-oriented, data-driven approach to improving safety,
           emphasizing open dialogue about common issues, and providing fresh ideas and new
           perspectives.



                                                                                                              56
                                                                                                    2




The Department has also set a new course of action to address the hazards of distracted driving,
and particularly the challenges posed by the use of cell phones, portable email devices and other
electronics in vehicles. Tests have demonstrated the dangers of distracted drivers on our roads,
and these data are further supported by testimonial evidence presented at DOT's recent summit
on distracted driving. The Obama Administration with Secretary LaHood's leadership is
working to end distracted driving. President Obama signed an executive order directing federal
employees not to text while driving and DOT will continue to work on additional efforts for
commercial drivers license holders. Additional actions are also being planned to better educate
our Nation's drivers to the dangers of distracted driving while stepping up high visibility
enforcement campaigns.

Further improving rail transit safety is another important new safety initiative underway at
DOT. While rail transit is one of the safest modes of transportation, a series of crashes in
Washington DC, Chicago, Boston and San Francisco over the last few years demonstrate the
need for a fresh look at innovative approaches to addressing this challenge. The Department
is addressing this challenge by reviewing both the state of good repair for transit equipment
and the rules under which transit operates. The Federal Transit Administration (FTA)
recently assessed the level of capital investment required to attain and maintain a state of
good repair for the nation's seven largest transit operators, which carry 80 percent of the
nation's rail transit ridership. FTA found that more than one-third of rail-transit assets are in
marginal or poor condition, with many having already met or exceeded their useful life.
Next, FTA plans to expand this study beyond the seven largest transit agencies to gain an
industry-wide perspective and better understand the level of transit investment for safety
critical infrastructure. In addition, the Deputy Secretary, is leading an intermodal team to
focus on developing options for transit safety reforms, which may extend to bus operations as
well. This team will review the many alternative models within DOT that could be used to
address transit safety challenges, as well as review the statutory authority alternatives for
addressing transit safety.

The Department Continues to Seek Long Term Funding Solutions

The financing methods that fund the highway and aviation trust funds are established by
statute. It has become increasingly clear that the existing statutory approaches to financing
the trust funds are not sustainable and will need to be addressed during the reauthorization
processes. The Department is working with the Congress to identify the implications of
alternative actions to address the long term funding needs for its aviation and surface
programs as part ofthe reauthorization processes. To facilitate these future discussions, the
Department is closely monitoring the balances in the Highway Trust Fund and is sharing this
information on a regular basis with Office of Management and Budget (OMB) and the
Congress.

DOT Is Focused on Strengthening Procurement Systems

The Department is taking a multifaceted approach to further strengthen its procurement
programs and provide strong sustained oversight. The requirements for Suspension and


                                                                                                    57
                                                                                                3



Debannent have been revised and updated, and will be implemented over the coming
months. These revised requirements, along with new, improved electronic data systems to
track actions, are intended to help ensure that potential inappropriate behavior by contractors
is dealt with promptly, effectively, and is communicated throughout the Federal Government.
On November 2,2009, the Department provided the OMB with a plan for dealing with high
risk contracting. This plan identified new approaches for ensuring that procurement
activities efficiently accomplish their intended objectives with minimal risk to the
Department. With regard to the acquisition workforce, DOT has taken a proactive approach
by designing and implementing an annual requirement for supplemental ethics training
provided as ajoint effort between the Office of General Counsel and the Department's Senior
Procurement Executive. We are also applying innovative approaches to help ensure that the
Department has an adequate acquisition workforce. For example, we plan to enhance the
applicant pool by running a continuous job announcement from which the operating
administrations may identify qualified applicants. Each procurement organization in the
Department will utilize individual development plans for its procurement workforce,
ensuring they are certified in accordance with Federal Acquisition Certification program.

Preventing Cyber Attacks Requires Constant Vigilance

The Department has achieved considerable progress in securing its networks and systems
against intrusions and cyber attacks, yet work remains. Every day we encounter new threats
to our networks and new risks. Capabilities are growing for increasingly sophisticated
attacks on critical infonnation technology infrastructure. Some of these issues can be
addressed within our approach to and implementation of countenneasures. Other elements
are larger than individual departments, and progress will depend on concerted efforts
throughout the Federal government. The Department continues putting the systems and
processes in place to address cyber security challenges, and has achieved significant progress
this the past year. For example, the Department promulgated a comprehensive new set of
cyber security policies. These policies will provide an up-to-date systematic foundation to
guide further evolutionary progress in cyber security. On the hardware side, the Department
has significantly greater situational awareness and visibility than it did one year ago thanks to
the completion of network sensors covering all DOT networks. DOT's ChiefInfonnation
Office has also demonstrated exceptional responsiveness to the cyber security and
infonnation technology issues raised by OIG, by closing an unprecedented 92 percent of its
pending recommendations, and effectively addressing long standing issues. The Deputy
Secretary has included this as a top prority assignment for the White House Fellow,
demonstrating the Department's commitment to continued improvements in this critical area.

In closing, we agree that the Department faces formidable management challenges in the
years ahead. DOT has demonstrated the qualities of resilience, ingenuity, and innovation in
facing those challenges, both anticipated and unanticipated. We will continue to do so. We
appreciate the perspectives offered by the Office of Inspector General in its management
challenges report and will use them to assist the Department in developing our plans for
addressing these critical areas.




                                                                                                58
